                                         AUDIT OF
                                  SBA’S OVERSIGHT OF THE
                                  FISCAL TRANSFER AGENT
                                FOR THE 7(A) LOAN PROGRAM

                                 AUDIT REPORT NUMBER 3-08

                                         JANUARY 30, 2003




This report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be
released to the public or another agency without permission of the Office of Inspector General.
       Any questions or discussion of the findings and recommendations contained in the report
should be directed to Robert G. Hultberg, Director, Business Development Programs Group at
(202) 205-7204.

Attachment
                            AUDIT OF SBA’S OVERSIGHT OF THE FISCAL
                          TRANSFER AGENT FOR THE 7(A) LOAN PROGRAM

                                                          Table of Contents

                                                                                                                              Page

SUMMARY............................................................................................................................ i


INTRODUCTION

           A. Background............................................................................................................ 1

           B. Objectives and Scope........................................................................................... 2


RESULTS OF AUDIT


Finding 1 – SBA Needs to Incorporate Proper Federal Accounting and Financial
            Management Procedures for its Master Reserve Fund..................................... 3

Finding 2 – Fees Due to SBA are not Timely Remitted and are an
            Inappropriate Augmentation to SBA’s Appropriation .................................... 7

Finding 3 – Contract Administration Weaknesses do not Fully Protect the Interests
            of the Federal Government ................................................................................ 9


APPENDICES

     A. Schedule of Estimated Float Interest Earned on Fee Collections

     B. Schedule of Estimated Front-end Float Interest Earned

     C. Schedule of Estimated Back-end Float Interest Earned

     D. Management Response

     E. Report Distribution
                                            SUMMARY

        The secondary market of SBA’s 7(a) loan program assists lenders in making long-term
loans to small business. Since 1989, Colson Services Corporation has been SBA’s Fiscal
Transfer Agent (FTA). The FTA serves as a central registry of owners of guaranteed interests
and of all SBA guaranteed interests sold or resold in the secondary market. The Master Reserve
Fund (MRF) was created to facilitate operation of loan pooling in SBA’s 7(a) secondary market
program by holding both the principal paid from borrowers and due to investors, as well as
accumulated interest earnings. SBA’s Office of Capital Access oversees the Colson contract and
the operations of the FTA.

       The audit objectives were to determine whether: 1) the MRF was properly accounted for
in accordance with Federal regulations; 2) the FTA was properly performing its fiscal transfer
agent functions; and 3) the FTA contract was properly awarded, administered and monitored.

       The audit disclosed the following:

   •   The results of MRF operations were not properly accounted for in accordance with
       Federal accounting regulations and Federal financial management procedures. SBA
       neither knew the fiscal health of the MRF nor timely reported this information to Agency
       decision-makers. SBA has not implemented financial reporting procedures which would
       identify the results of loan pooling operations (surpluses and shortfalls) within the MRF,
       nor analyzed the MRF for future potential revenues and projected shortfalls from loan
       pooling operations. The MRF also has not been treated in a manner similar to a trust
       fund and public funds held in the MRF were not registered with symbols and titles by the
       Department of Treasury (Treasury) in consultation with the Office of Management and
       Budget (OMB).

   •   SBA has allowed the FTA to hold basis point fees and other fees collected on behalf of
       SBA although these fees are due immediately to SBA. This allows the FTA to receive
       approximately 23 days of float interest per month on the fees and this is the compensation
       for providing the collection services. An estimated $527,000 over two years was paid to
       the FTA. This practice is an inappropriate augmentation to SBA’s appropriation as SBA
       had the FTA use the float collected on the fees as compensation for collecting these fees
       rather than paying the compensation from appropriated funds.

   •   SBA did not award, administer, and monitor the FTA contract in a manner that fully
       protected the interests of the Federal government or ensured that the government received
       the best services for the least cost. Specifically, (1) the FTA contract was improperly
       extended beyond five years, (2) the legality of float compensation payments to the FTA
       was unclear and an unsound business practice, (3) accurate FTA contract costs were not
       tracked or maintained, (4) Federal regulations for administering the MRF do not exist,
       and (5) there were discrepancies in the terms and conditions for auditing the FTA by its
       Independent Public Accountant including meeting FOIA requirements and the need to
       conduct Statements on Auditing Standards (SAS) 70 reviews.


                                                i
       We made recommendations to the Chief Financial Officer to:

   •   Report the financial results of MRF operations in the nature of a trust fund.
   •   Statistically reconcile the source and application of funds in the MRF to more properly
       identify the public funds from the MRF principal amounts.
   •   Work with Treasury and the OMB to establish Treasury titles and symbols for the MRF.

       We made recommendations to the Associate Deputy Administrator for Capital Access in
conjunction with the Assistant Administrator for Administration to:

   •   Direct the FTA to submit basis point fees collected to the Federal government by the end
       of each business day when the depository receipts total over $1,000.
   •   Negotiate for a fixed compensation rate for the FTA to collect basis point fees and
       compensate the FTA through SBA’s appropriation.
   •   Determine whether any other remedies are needed concerning the inappropriate
       augmentation of SBA’s appropriation.
   •   Begin the process of initiating a new procurement action for FTA services.
   •   Eliminate float interest compensation to the FTA for both the front-end and back-end
       float compensation periods in all future contracts with an FTA.
   •   Review FTA activities and identify contract costs of providing services and establish a
       fee structure sufficient to cover such services.
   •   Ensure that contract provisions for audits performed by Independent Public Accounting
       firms working for the FTA include access rights to audit reports and working papers by
       OIG and the General Accounting Office.

       We made recommendations to the Associate Deputy Administrator for Capital Access to:

   •   Ensure that future audits of the Fiscal Transfer Agent by Independent Public Accounting
       firms include a Statement on Auditing Standards (SAS) 70 review of internal controls,
       and computerized system controls.
   •   Develop and publish regulations and SBA procedures governing the operation and
       functioning of the MRF.

       We made recommendations to the Acting Assistant Administrator for Administration to:

   •   Instruct SBA contracting officers to obtain OGC review for legal sufficiency and not to
       extend contracts beyond five years in the future.
   •   Move the Contracting Officers Technical Representative (COTR) duties for the current
       and future FTA contracts to the Office of Chief Financial Officer and maintain a
       Technical Point of Contact (TPOC) within the Office of Financial Assistance.

       We made recommendations to the General Counsel to:

    • Provide a legal opinion as to whether float interest compensation is legal and allowable in
      FTA contracts.


                                               ii
    • Determine whether any other remedies are needed concerning the use of float interest
      compensation to the FTA.

       The Chief Financial Officer generally agreed with the recommendations addressed to
him. Comments provided by the Associate Deputy Administrator for Capital Access, Acting
Assistant Administrator for Administration, and General Counsel did not state whether they
agreed or disagreed with the recommendations addressed to them and actions to address the
findings and recommendations will be evaluated during the audit resolution process.




                                              iii
                                   INTRODUCTION
A. Background
         The secondary market of SBA’s 7(a) loan program is intended to assist lenders to
make long-term loans to small business and provide liquidity which may be used to make
additional loans. In the secondary market a lender sells the SBA guaranteed portion of a
loan to an investor. The investor as a registered holder receives an unconditional
guarantee from the SBA which is backed by the full faith and credit of the United States.
The SBA guaranteed portion of loans can also be pooled. The advantage of pooling is
that in cases of delayed payments by originating lenders on individual loans, the investors
would still be paid timely.

        The SBA initially contracted with Colson Services Corporation as the Fiscal
Transfer Agent (FTA) for the secondary market in 1989. Colson was awarded a second
contract in April 1994 and the contract can be extended through June 2011, if all options
are exercised. The FTA serves as a central registry of owners of guaranteed interests and
of all SBA guaranteed interests sold or resold in the secondary market. It also receives
remittances from lenders in respect to guaranteed interests, makes appropriate payments
to each registered holder of a certificate along with a statement of account, and furnishes
SBA with reports on program activity. As of September 30, 2002, the secondary market
portfolio consisted of 48,492 loans, valued at approximately $11,113,856,491 in 4,628
loan pools.

        The Master Reserve Fund (MRF) was created to facilitate operation of loan
pooling in SBA’s 7(a) secondary market program. The MRF includes both the principal
paid from borrowers and due to investors, as well as accumulated interest earnings which
is intended to ensure timely payments to investors if there is a shortfall in borrower
payments from monthly loan collections. As of September 30, 2002, the MRF totaled
$1.2 billion which included the initial principal payment to secondary market investors of
around $665 million and $536 million in accumulated interest earnings which had been
determined to be Federal funds.

        SBA’s Office of Capital Access oversees the Colson contract and the operations
of the FTA. The FTA is currently compensated by the collection of fees (e.g., issuance,
service, transfer, origination, etc). The FTA earns additional revenue on float interest
from the investment and reinvestment of funds between the date payments are received
from lenders and the date payments are received by the registered holders or SBA’s MRF
for loans included in loan pools. The MRF also is charged for services provided by other
contractors selected by the FTA and approved by SBA including management and
custodial fees, commissions, broker expenses, and trustee fees for managing the public
funds in the MRF. These various fees and expenses are for investing the MRF in
Treasury securities and other cash equivalent securities that contain no market risk.




                                             1
B. Objectives and Scope

    The objectives of the audit were to determine whether: (1) the MRF was properly
accounted for in accordance with Federal regulations, (2) the FTA was properly
performing its fiscal transfer agent functions, and (3) the FTA contract was properly
awarded, administered and monitored.

        We reviewed the contract with the FTA and reviewed internal accounting
statements and documents from the FTA regarding the MRF. We analyzed 7(a)
borrowers’ payments to the FTA and disbursements of loan pool amounts to investors to
determine an approximate amount of dollar earnings for float income due to the FTA.
We met with Office of Financial Assistance officials (OFA) to discuss secondary market,
and FTA operations. Interviews were conducted with Office of the Chief Financial
Officer officials (OCFO) to discuss potential MRF financial reporting issues of the FTA.
We also reviewed the basis point fees collected by the FTA for the SBA.

       Audit fieldwork was performed from November 2000 through March 2002 and
included tests that we considered necessary to answer our audit objectives. The audit was
performed in accordance with generally accepted Government Auditing Standards.




                                            2
                                 RESULTS OF AUDIT

FINDING 1 SBA Needs to Incorporate Proper Federal Accounting and Financial
          Management Procedures for Its Master Reserve Fund

         SBA neither knew the fiscal health of the MRF nor timely reported this
information to Agency decision-makers. This occurred because SBA did not reconcile
the MRF as agreed to by SBA in our previous audit report issued in 1993. Additionally,
while SBA receives monthly reports on the balance of the MRF from the FTA, SBA has
not implemented financial reporting procedures which would identify the results of loan
pooling operations (surpluses and shortfalls) within the MRF, nor analyzed the MRF for
future potential revenues and projected shortfalls from loan pooling operations.
Specifically, we found that: (1) the MRF has not been treated in a manner similar to a
trust fund, and (2) the public funds held in the MRF were not registered with symbols and
titles by Treasury in consultation with OMB. As a result, the true status of the MRF is
unknown and a potential liability may exist in the MRF.

a. The MRF needs to be treated in a manner similar to a trust fund

        The MRF earns investment income to ensure timely payment to pool investors
when shortfalls arise in loan pooling operations. This investment income is derived from
the “float” interest collected from investing borrower payments between time of receipt
and the time those payments are then paid to loan pool investors. The MRF is, therefore,
a fund held for later use in a fiduciary capacity. Currently, SBA does not require that its
financial statements fully disclose the fiscal health and well-being of the MRF.
Specifically, condensed balance sheet and income statement information does not exist
for the MRF. As a result, SBA has insufficient information to know how the MRF is
performing as a fiscal entity and is unable to make projections about its future
performance.

        According to Statements of Federal Financial Accounting Standards (SFFAS) No.
7, Section 83, a reporting entity may be responsible for funds financed with dedicated
collections that are held for later use in a fiduciary capacity. Special accountability is
required for the sake of contributors who expect to benefit from the fund’s future
expenditures. Such funds are similar in nature to other Federal trust funds (inside or
outside the budget) that are fiduciary in nature. SFFAS No. 7, Section 84, requires
separate financial information about dedicated collections that should be provided if they
are material either to the reporting entity, the beneficiaries or the contributors.

         SFFAS No. 7, Section 85, includes the following reporting requirements for these
funds:
         •   A description of each fund’s purpose;
         •   The sources of revenue or other financing for the period and an explanation
             of the extent to which the funds are inflows to the Government;




                                             3
        •   Condensed information about assets and liabilities showing investments in
            Treasury securities, other assets, liabilities due and payable to beneficiaries,
            other liabilities, and fund balance;
        •   Condensed information on net cost and changes to fund balance showing
            revenues by type, program expenses, other expenses, other financing sources
            and other changes in fund balance; and
        •   Any revenues, other financing sources, or costs attributable to the fund under
            accounting standards.

         SBA’s FY 2001 financial statements reported that the MRF had accumulated
interest earnings totaling $490 million. The OCFO estimated that of the $490 million,
$169 million was a contingent liability that would potentially be needed to cover
shortfalls to investors in the future, $253 million had been utilized to cover shortfalls in
loan pooling operations in the past, and that the remaining $68 million were earnings
from pool operations (SBA equity). However, these estimates were based on analyzing
the income and losses on five loan pools. These estimates were not based on a valid
statistical sample of closed and open pools. In the April 2002 management letter from
the independent auditors who audited SBA’s financial statements, the auditors
recommended that SBA determine whether the MRF should be treated in a nature similar
to a trust fund for financial reporting purposes. In this audit, the auditors concluded that
the MRF was in the nature of a trust fund and to properly comply with SSFAS No. 7, the
MRF needed to be treated in a nature similar to a trust fund.

        Since the inception of the MRF in 1986, SBA has not required the recognition of
revenue or losses on loan pools in the MRF and, therefore, does not know the current
financial condition of the MRF. SBA, therefore, needs to statistically reconcile the MRF
for loan pools that have been fully paid since the beginning of the fund and for other
transactions that have affected the MRF. This would establish SBA’s equity position
within the MRF. SBA also needs to analyze the MRF for future projected cash flows to
identify potential future funding (if any) the MRF may need to ensure the solvency of the
fund.

        Additionally, as loan pools are paid-off, surpluses and shortfalls have not been
recognized on loan pool operations in the MRF. These surpluses or shortfalls have not
been netted against current investment income to provide the basis for condensed income
statement information for the MRF in SBA's financial statements. A previous OIG audit
(3-2-H-007-0036) issued in June 1993 recommended that the MRF be reconciled on a
periodic basis to include funds due, funds received, funds disbursed and the amount of
deficiency assessed to the MRF. Although SBA agreed with this recommendation, SBA
took no action and the MRF has never been reconciled.

b. Public funds held within the MRF have not been registered with symbols and
   titles by Treasury in consultation with OMB

      Government funds held within the MRF, estimated at $536 million as of
September 30, 2002, were not registered with symbols and titles by Treasury as required
by Federal regulations. This occurred because SBA did not originally set up the MRF


                                             4
correctly when the fund was established in 1985. As a result, the estimated $536 million
in government funds have not been properly accounted for with Treasury.

        The GAO Policy and Procedures Manual, Title 7, Chapter 2.1.A and 2.1.B,
requires that all public funds shall be deposited in and/or spent from a Federal fund or
trust fund managed by Treasury. Account symbols are assigned by Treasury in
consultation with OMB, and in compliance with the principles, standards, and related
requirements prescribed by the Comptroller General.


       [                         FOIA Exemption 5
       ] In discussions with OMB, SBA had not established Treasury symbols to
properly account for the public funds held within the MRF. Since 1986, SBA has held
the public funds in a non-government trust fund. In 1993, Treasury performed a Cash
Management Review and determined that interest earnings in the MRF should be
reported on SBA’s Statement of Transactions (SF-224). To comply with this
requirement, SBA should have worked with OMB to set up the required Treasury
symbols to ensure correct reporting of interest earnings held within the MRF.

Recommendations

       We recommend that the Chief Financial Officer in conjunction with the FTA:

1A.    Report the results of MRF operations in compliance with SFFAS No. 7. This
       would include the creation of those financial statements or reports which would
       identify and report on the fiscal health of the MRF.

1B.    Statistically reconcile the MRF as to the different amounts that make up the MRF
       to more properly identify the public funds from the MRF principal amounts. This
       would include: initial borrower payments held by the MRF, accumulated revenues
       and/or liabilities from loan pool operations, administrative fees and interest
       earnings.

1C.    Work with the Office of Management and Budget (OMB) and Treasury officials
       to properly establish symbols and titles for the SBA Master Reserve Fund.

Management Comments

        The Chief Financial Officer agreed to include the information required by SFFAS
No. 7 in a footnote to SBA's financial statements and to work with the FTA to develop a
plan for obtaining a complete accounting of the MRF. He also stated that while SBA
believed reporting of the MRF has been consisted with past Treasury and OMB guidance,
the MRF may be impacted by a new Treasury reporting requirement on Cash and
Investments Held Outside of Treasury (CIHO) and an OMB mandate that the MRF be
included in the reporting requirements under the Federal Credit Reform Act (FCR). The
Chief Financial Officer further stated that SBA will work with OMB and Treasury to
implement the reporting requirements of CIHO and FCR as they relate to the MRF.


                                             5
Evaluation of Management's Comments

      The Chief Financial Officer's comments are responsive to our recommendations.




                                         6
FINDING 2 Fees Due to SBA are not Timely Remitted and are an Inappropriate
          Augmentation to SBA’s Appropriation

        The FTA collects, on behalf of SBA, certain fees from borrowers and lenders who
participate in SBA loan programs around the 6th of each month. These fees are collected
to reduce the subsidy rate for SBA loan programs and other loan program expenses.
These fees are due immediately to SBA; however, SBA has allowed the FTA to hold this
amount until around the 29th of each month before it remits the funds to SBA. This
allows the FTA to receive approximately 23 days of float interest per month on the fees
and this is the compensation for providing the collection services. An estimated
$527,000 over two years was paid to the FTA. This practice is an inappropriate
augmentation to SBA’s appropriation as SBA had the FTA use the float collected on the
fees as compensation for collecting these fees rather than paying the compensation from
appropriated funds.

        31 USC 3302 identifies that an agent of the US Government having custody or
possession of public money shall keep the money safe without using the money and shall
deposit the money in the Treasury as soon as practicable without deduction for any
charge or claim. The GAO Policy and Procedures Manual, Title 7 Chapter 5.3B requires
the frequency of deposits of funds will depend upon the amount of funds received.
Receipts of $1,000 or more shall be deposited daily. 15 USC 636 identifies that basis
point fees shall be paid to the SBA and used to reduce the subsidy on loans guaranteed to
small business concerns.

        As an example of the cost of the float income lost to SBA, we obtained the
amounts from the largest fee payments made to SBA from the FTA for FY 2000 and FY
2001. These fees included the 50 basis point fees and loan accrual fees. These fees are
collected around the 6th of the month and paid to SBA around the 29th of the month. We
also obtained the actual money market (Vista) rate as a conservative example of the
interest float that the FTA earned in FY 2000 and FY 2001. We computed an estimation
of the FTA’s earnings from float (See Appendix A). We estimated that the FTA made
$527,000 in float income for FY 2000 and FY 2001.

       The enabling legislation for collection of basis point fees (15 USC 636) did not
allow the FTA specific authority to use the float interest of the basis point fees as the
compensation mechanism for collecting these fees. SBA, therefore, should be
compensating the FTA from its own appropriation for the collection of these fees.
Additionally, the FTA is SBA’s fiscal agent and according to the above Federal fiscal
procedures, it is the responsibility of the FTA to make deposits of funds owed to the SBA
daily when receipts are $1,000 or more.

Recommendations

       We recommend that the Associate Deputy Administrator for Capital Access in
conjunction with the Acting Assistant Administrator for Administration:




                                            7
2A.    Direct the FTA to submit basis point fees collected to the Federal government by
       the end of each business day when the depository receipts total over $1,000.

2B.    Negotiate for a fixed compensation rate for the FTA to collect basis point fees and
       compensate the FTA through SBA’s appropriation.

2C.    Determine whether any other remedies are needed concerning the inappropriate
       augmentation of SBA’s appropriation.

Management Comments

        The response provided by the Associate Deputy Administrator for Capital Access
did not specify whether he agreed or disagreed with the finding and recommendations.

Evaluation of Management's Comments

       The comments provided by the Associate Deputy Administrator for Capital
Access were not responsive to the recommendations and actions to address the finding
and recommendations will be evaluated during the audit resolution process.




                                            8
FINDING 3 Contract Administration Weaknesses do not Fully Protect the
          Interests of the Federal Government

        The FTA contract does not fully protect the interests of the Federal government or
ensure that the government receives the best services for the least cost. Specifically, we
found: (1) the FTA contract was improperly extended beyond five years, (2) the legality
of float compensation payments to the FTA was unclear and an unsound business
practice, (3) accurate FTA contract costs were not tracked or maintained, (4) Federal
regulations or procedures for administering the MRF do not exist, (5) the terms and
conditions for auditing the FTA by its Independent Public Accountant need to be changed
to include meeting FOIA requirements and performing audits in accordance with
Statements on Auditing Standards (SAS) 70 requirements.

a. The Contract was Improperly Extended Beyond Five Years

        In 1996, SBA improperly extended the contract with the FTA (Contract No.
SBAHQ-94-C-8114) scheduled to expire in 1999 for seven additional years and included
two additional 30-month options which, if exercised, would ultimately cause the contract
to be effective from April 1994 through June 2011. This occurred because SBA believed
that the maximum time provisions in the Federal Acquisition Regulations (FAR) for
contractor services did not apply since the contractor was not being compensated with
appropriated Federal funds. As a result, the contract with the FTA did not terminate in
1999 and a new FTA contract was not fairly competed. Potentially, a different contractor
could have been selected that would have afforded SBA the opportunity to seek the best
value through open competition for FTA services and which could have resulted in less
cost to the Federal government.

        41 USC 353(d) limits Federal service contracts to five years. Additionally,
41 USC 253 requires full and open competition through the use of competitive
procedures such as sealed bids and competitive procedures on new contract proposals that
are best suited under the circumstances of the procurement.

         SBA initially tried to extend a previous 1989 contract with the same FTA in 1992
for a term beyond five years. [                    FOIA Exemption 5




                     ] In 1996, SBA extended the current contract [FOIA Exemption 5].

        CICA allows for seven exceptions that can be utilized as justification whereby
other than competitive procedures are authorized 41 USC 253(a)(1)(c). During our
review of FTA contract files, we did not find documentation by SBA supporting that any
of these seven exceptions were relied upon for extending the FTA contract extension and
justifying additional option periods.



                                            9
        By improperly extending the existing contract with the FTA in 1996, SBA
negated any possibility that a new contract could have been written in 1999 when the
1994 contract should have expired. This prevented full and open competition of the
existing contract with the FTA. Additionally, the methods of compensation in the
existing contract along with a lack of accounting for the costs of the contract prevent
SBA from judging whether it is receiving the best services at the least cost to the Federal
government (See b and c below). Given the history of the FTA contract extension issues
and the financial issues regarding financial statements (Finding 1), SBA should move
Contracting Officers Technical Representative duties to the Office of Chief Financial
Officer. Additionally, SBA should retain the current COTR as the Technical Point of
Contact for day-to-day operational oversight of the FTA contract.

b. Float Compensation Payments to the FTA are an Unsound Business Practice
and Need to be Eliminated

        SBA pays “float” interest compensation as a part of its compensation package to
the FTA for its services. It is unclear whether this practice is prohibited by law or
regulation, however this form of compensation should be eliminated from future FTA
contracts due to the unknown and potentially large amounts of compensation that could
occur during periods of high interest rates. Because of the open-ended form of this
compensation method, the FTA was compensated an estimated $7.49 million for its
services in FY 2000 and FY 2001 in float interest income, exclusive of other SBA
approved fees. This amount could be over compensation given the work that was
performed by the FTA at that time.

       According to the legislative history relating to the Secondary Markets
Improvement Act of 1984 (P.L. 98-352), in cases of delayed payments by originating
lenders on individual loans, the agent would still continue to make timely payments to
pool investors, covering the shortfall with fees charged and profits made from the interest
on monies in the custody of the agent during the float between payments received and
payments made. Additionally, the FTA could only charge such fees as are approved by
SBA to cover expenses directly related to central registration and to the administration
and servicing of the pools.

        The FTA earns float on the front-end and on the back-end. For front-end float,
the FTA receives the payments from the borrowers around the third of every month and
holds the payments from the borrowers for about twelve days (the 3rd to the 15th). For
back-end float, the FTA transfers the funds from the MRF on the 25th of the month and
the FTA holds the funds for an estimated three days until the investors cash the checks or
the funds are deposited by ACH in the investors’ accounts.

        As an example of the cost of the float income lost to the MRF and to the SBA, we
obtained the amount of funds paid by borrowers to the MRF (front-end float) and the
funds paid to investors (back-end float). We also obtained the actual money market
(Vista) rate as a conservative example of the interest float that the FTA earned in FY
2000 and FY 2001. We computed an estimation of the FTA’s earnings from float income



                                            10
(See Appendix B for front-end float and Appendix C for back-end float). We estimated
that the FTA received $7.49 million over the past two years in float income.

        The OIG took exception to the use of back-end float in a prior audit report (3-2-
H-007-036). Treasury also performed a Cash Management review of the MRF as a result
of the 1993 OIG audit. The Cash Management Review stated that the issue of whether
the contractor should earn interest on the float associated with the negotiation of checks is
a contractual matter to be resolved by SBA management, the Office of Inspector General
and SBA General Counsel. While Treasury’s Cash Management Review discussed the
use of back-end float, front-end float is also an issue that is negotiable for future FTA
contracts.

        The legislative history of the Secondary Market Improvement Act indicates that
float income is to be used to cover the shortfall between when borrowers are late making
payments to the MRF and the FTA’s duty to make timely payment to the investors in the
secondary market. Additionally, the FTA should only be allowed to earn fee
compensation that is directly related to central registration and to the administration and
servicing of the loan pools. Therefore, the $7.49 million received over the past two years
may have been an improper source of compensation to the FTA since it is not a fee
directly related to the central registration and to the administration and servicing of loan
pools within the secondary market.

        Given the stated legislative history of the Secondary Markets Improvement Act
and the large amounts of funds that the FTA has received as float interest compensation,
the SBA Office of General Counsel (OGC) should provide an opinion as to whether this
is a legal form of contract compensation and whether financial remedies are necessary.
For future FTA contracts, we believe this form of compensation needs to be eliminated to
protect the MRF and the Federal government from potentially over compensating the
FTA.

c. Accurate FTA Contract Costs are not tracked or maintained

         The FTA contract is currently categorized as a firm-fixed-price contract with no
cost to the government. However, the contract cost the government at least $5.8 million
in FY 2000 and $6.1 million in FY 2001 for secondary market and MRF activities. These
costs are either taken directly out of the MRF or from float interest compensation to the
FTA. SBA did not have a mechanism to track the costs of the contract in any form. As a
result, the $5.8 and $6.1 million in contract costs for FY 2000 and FY 2001 respectively,
were not reported in SBA financial statements. This omission prevents Agency decision-
makers from knowing the true costs of FTA activities.

        According to FAR 16.202, a firm-fixed-price contract provides for a price that is
not subject to any adjustment on the basis of the contractor's cost experience in
performing the contract. Additionally, a firm-fixed-price contract is suitable for
acquiring commercial items or for acquiring other supplies or services on the basis of
reasonably definite functional or detailed specifications when the contracting officer can
establish fair and reasonable prices at the outset. Fair and reasonable prices occur when


                                             11
there are reasonable price comparisons with prior purchases of the same or similar
supplies or services made on a competitive basis or supported by valid cost or pricing
data and available cost or pricing information permits realistic estimates of the probable
costs of performance.

       SBA has maintained that since the MRF does not use appropriated funds, SBA
does not have to follow the FAR when contracting for FTA services. SBA has, therefore,
awarded no cost contracts with the FTA and has not tracked contract costs for FTA
services. SBA has incorrectly assumed that since there were no appropriated funds
expended, there was no cost to the Federal government. [FOIA Exemption 5



       ]. A conservative estimate of the FY 2000 and FY 2001 contract costs to the
Federal government includes the following:

                                                     FY 2000                FY 2001
       Management & Custodial Fees                   $ 910,708              $1,103,325
       Commission & Broker Expenses                  $ 739,622              $1,013,873
       Trustee Fees                                  $ 100,000              $ 100,000
       Front-end Float Income (from 5th to 15th)     $2,510,874             $2,427,883
       Back-end Float Income (from 25th to 28th)     $1,320,532             $1,233,878
       Float Income on Fees Collected for SBA        $ 267,761              $ 259,194
               Totals                                $5,849,497             $6,138,153

        The amounts listed above are the various forms of compensation paid to the FTA.
The first three amounts are paid from the MRF. The front-end and back-end float are the
interest amounts made by the FTA while the borrower and investor payments are held by
the FTA. The float income on fees collected for SBA are the amounts that Treasury
would make on the timely remission of fees to the Federal government. These amounts
do not include thousands of dollars of fees charged by the FTA on transactions affecting
loans in the secondary market for the 7(a) loan program. The FTA earns more
compensation than is listed here and these amounts are used for comparison purposes to
track the costs of FTA services to the Federal government.

        It is incumbent upon SBA to obtain the best possible services for the least cost in
contracting for FTA services. To do this, the SBA must develop a system to identify and
track contract costs by the FTA so that when the next contract solicitation is written, SBA
will have the information necessary on which to base an informed contract decision and
make a cost justified award.

d. There are no Federal Regulations or Procedures for Administering the Master
   Reserve Fund

       SBA has not promulgated Federal regulations or SBA Standard Operating
Procedures for administering the Master Reserve Fund. The SBA contract with the FTA
contains the only procedures for the operation of the MRF. Given that the MRF totals


                                            12
over $1.2 billion as of September 30, 2002 and that $536 million are Federal funds, there
should be procedures at SBA for how the MRF should be operated and overseen.

         Section 3.B. of the Small Business Secondary Markets Improvement Act of 1984
(P.L. 98-352), requires the SBA to promulgate final rules and regulations to implement
the act.

       At a minimum, we believe such procedures or regulations would:

   •   Designate the MRF to be Federal funds and include SBA’s responsibilities for
       managing the fund.
   •   Designate the date of the billing month when payments from borrowers to the
       MRF actually become Federal funds.
   •   Designate the date of the billing month when MRF funds actually become funds
       due to investors and are then transferred out of MRF interest bearing accounts.
   •   Designate the investment instruments the MRF can be invested in and the
       compensation mechanism for the trustee to invest MRF funds.
   •   Designate the amount of fees to be paid from the MRF and for what purposes.
   •   Designate how suspense funds (funds collected from borrowers who cannot be
       identified, but whose funds are ultimately due to MRF) are to be treated.
   •   Designate the responsibility for overseeing the reconciliation and accounting
       procedures the CFO must utilize to properly account for the MRF.

        The issue of no Federal procedures or regulations governing the correct or
complete functioning of the MRF was reported by Walker & Company, LLP (an
Independent Public Accountant) hired by the Chief Financial Officer to evaluate the
effectiveness of SBA’s oversight of the MRF in December 2000. SBA’s response to that
report was to identify that this was not considered a problem. The FTA was audited by
an IPA that had to meet American Institute of Certified Public Accountant (AICPA)
standards. However, the provisions governing the correct and complete operation of the
MRF (containing over $500 million in Federal funds) are by an SBA contract. The audits
performed by the FTA’s IPA do not review SBA’s operational oversight of the MRF, nor
examine the long-term fiscal health of the MRF.

e. The terms and conditions for auditing the Fiscal Transfer Agent by an
    Independent Public Accountant need to be changed

       Currently, the FTA is audited by an IPA hired by the FTA to determine the
adequacy of financial and operational controls and procedures in accordance with the
FTA contract. The audits performed by the IPA are not required to be in accordance with
Government Auditing Standards, nor are there requirements that the IPA determine
compliance with applicable laws and regulations. To ensure proper audit procedures are
performed, audits of the FTA should be in accordance with Government Auditing
Standards and any non-compliance with applicable laws and regulations should be timely
reported to the SBA and the OIG. This would ensure the proper scope of audits of the
FTA and Trustee, and as FTA and Trustee issues arise, the SBA and OIG would be fully



                                           13
informed and aware of these issues. Additionally, the contract between SBA and the
FTA did not contain an audit access clause that would allow OIG to review auditor
working papers upon request.

f. Audit Reports on FTA financial and operational controls are subject to Freedom
   of Information Act requests

        Letters transmitting audit reports on the performance of the FTA by its IPA
contain the wording that the reports are not subject to Freedom of Information Act
(FOIA) requests. 5 U.S.C. 552(a)(1) requires that each Federal agency shall make
available information of the general course and method by which its functions are
channeled and determined. Audits of Federal programs or Federally sponsored programs
are subject to FOIA requests. The restrictions that audit reports on FTA activities are not
subject to FOIA are in violation of the current FTA contract since such disclosure is
required by law. This wording needs to be eliminated from transmittals of IPA reports on
FTA activities specifically related to the FTA contract.

g. The FTA should be required to have audits in accordance with Statement on
Auditing Standards 70

        The FTA should be required to have reviews of its operations in accordance with
the requirements of Statement on Auditing Standards (SAS) 70. SAS 70 requires reviews
of internal controls, and system-wide areas such as computer security and trust
accounting procedures. We believe that SAS 70 reviews of a proper scope would provide
OIG and other auditors hired to audit SBA’s financial statements reasonable assurance
and therefore, could avoid duplication by the various audit organizations and reduce
overall auditing of the FTA.

Recommendations

       We recommend that the Associate Deputy Administrator for Capital Access in
conjunction with the Acting Assistant Administrator for Administration:

3A.    Begin the process of initiating a new procurement action for FTA activities and
       then terminate the existing contract with the FTA when either a new contract with
       the current FTA can be enacted or a new contract with a different FTA can be
       enacted.

3B.    Eliminate float interest compensation to the FTA for both the front-end and back-
       end float compensation periods in all future contracts with an FTA.

3C.    Review FTA activities and identify contract costs for fees and services. Report
       these contract costs in proposed MRF trust fund financial statements so future
       FTA contracts will have historical cost data for comparison purposes.




                                            14
3D.    Change the contract provision for audits of the Fiscal Transfer Agent to include
       access rights to audit reports and working papers by the OIG and the U.S. General
       Accounting Office.

       We recommend that the Associate Deputy Administrator for Capital Access:

3E.    Ensure that future audits of the Fiscal Transfer Agent by its Independent Public
       Accountant include a Statement on Auditing Standards (SAS) 70 review of
       internal controls and computer security controls.

3F.    Develop SBA procedures and regulations governing the proper operation of the
       MRF. These procedures would include how to treat MRF float income and other
       operational aspects of the MRF.

       We recommend that the Acting Assistant Administrator for Administration:

3G.    Instruct SBA contracting officers to obtain OGC review for legal sufficiency and
       not to extend contracts beyond five years in the future.

3H.    Move the Contracting Officers Technical Representative (COTR) duties for the
       current and future FTA contracts to the Office of Chief Financial Officer and
       maintain a Technical Point of Contact (TPOC) within the Office of Financial
       Assistance.

       We recommend that the Office of General Counsel:

3I.    Provide a legal opinion as to whether float interest compensation is legal and
       allowable in FTA contracts.

3J.    Determine whether any other remedies are needed concerning the use of float
       interest compensation to the FTA.

Management Comments

       The responses provided by the Associate Deputy Administrator for Capital
Access, Acting Assistant Administrator for Administration, and General Counsel did not
specify whether they agreed or disagreed with the finding and the recommendations.

Evaluation of Management's Comments

        The comments provided by the Associate Deputy Administrator for Capital
Access, Acting Assistant Administrator for Administration, and General Counsel were
not responsive to the recommendations and actions to address the finding and
recommendations will be evaluated during the audit resolution process.




                                           15
                                                                             APPENDIX A

       ESTIMATE OF FLOAT INTEREST EARNED BY FTA ON FEE COLLECTIONS



FY 2000 Projected Totals:

       Money                    40/50 Basis      Loan                              Estimated
       Market   Days   Interest Point Fee        Accrual Fee         Total         Float
Month Rate      Held   Factor   Collections      Collections         Collections Interest
Oct    4.91%     23    0.003094       $3,212,613          $2,429,083     $5,641,696      $17,455
Nov    5.08%     23    0.003201       $3,230,903          $2,079,287     $5,310,190      $16,998
Dec    5.05%     23    0.003182       $3,125,636          $2,418,983     $5,544,619      $17,644
Jan    4.96%     25    0.003397       $3,296,312          $2,780,581     $6,076,893      $20,645
Feb    5.26%     23    0.003315       $3,422,161          $2,565,764     $5,987,925      $19,847
Mar    5.47%     23    0.003447       $3,453,451          $2,879,797     $6,333,248      $21,830
Apr    5.74%     25    0.003932       $3,622,376          $2,907,259     $6,529,635      $25,671
May    5.84%     24    0.003840       $3,236,100          $2,689,150     $5,925,250      $22,753
Jun    6.10%     23    0.003844       $3,544,838          $2,906,702     $6,451,540      $24,799
Jul    6.26%     25    0.004288       $3,567,353          $2,874,639     $6,441,992      $27,621
Aug    6.27%     23    0.003951       $3,724,577          $3,013,327     $6,737,904      $26,621
Sep    6.30%     23    0.003970       $3,603,481          $2,914,844     $6,518,325      $25,877
Totals                               $41,039,801         $32,459,416 $73,499,217       $267,761




FY 2001 Projected Totals:

       Money                         40/50 Basis      Loan                      Estimated
       Market   Days   Interest      Point Fee        Accrual Fee   Total       Float
Month Rate      Held   Factor        Collections      Collections   Collections Interest
Oct    6.31%     24      0.004149     $3,724,698      $2,968,730     $6,693,428       $27,771
Nov    6.34%     23      0.003995     $3,989,552      $3,273,229     $7,262,781       $29,015
Dec    6.31%     23      0.003976     $3,744,414      $3,329,574     $7,073,988       $28,127
Jan    5.80%     24      0.003814     $3,560,783      $3,216,558     $6,777,341       $25,847
Feb    5.15%     23      0.003245     $4,417,019      $3,425,344     $7,842,363       $25,450
Mar    4.94%     23      0.003113     $3,860,267      $3,052,760     $6,913,027       $21,519
Apr    4.59%     24      0.003018     $3,903,848      $3,237,872     $7,141,720       $21,554
May    3.83%     23      0.002413     $3,854,070      $3,227,182     $7,081,252       $17,090
Jun    3.64%     23      0.002294     $3,969,658      $3,227,856     $7,197,514       $16,509
Jul    3.52%     24      0.002315     $4,059,339      $3,362,877     $7,422,216       $17,179
Aug    3.41%     23      0.002149     $4,130,472      $3,345,567     $7,476,039       $16,064
Sep    2.86%     25      0.001959     $3,308,997      $3,361,523     $6,670,520       $13,067
Totals                               $46,523,117     $39,029,072    $85,552,189      $259,194

Two Year Total                                                                    $526,955
                                                                                     APPENDIX B

    ESTIMATE OF FRONT-END FLOAT INTEREST EARNED BY FTA ON MRF

                           FY 2000 Estimated FTA front-end float interest:

                          Pool Receipts   Money Mkt          Days Held By               Estimated Float
        Month             Per Month       Rate               FTA 1(5.75/365)            Interest Earned
        Oct                 $217,131,501         4.91%               0.015753425                  $167,950
        Nov                 $214,878,393         5.08%               0.015753425                  $171,962
        Dec                 $279,261,510         5.05%               0.015753425                  $222,166
        Jan                 $220,036,476         4.96%               0.015753425                  $171,930
        Feb                 $222,580,516         5.26%               0.015753425                  $184,437
        Mar                 $245,662,679         5.47%               0.015753425                  $211,691
        Apr                 $230,239,350         5.74%               0.015753425                  $208,193
        May                 $234,509,467         5.84%               0.015753425                  $215,749
        Jun                 $247,072,911         6.10%               0.015753425                  $237,427
        Jul                 $244,180,612         6.26%               0.015753425                  $240,802
        Aug                 $252,565,146         6.27%               0.015753425                  $249,469
        Sep                 $230,839,215         6.30%               0.015753425                  $229,100
        Totals            $ 2,838,957,774                                                       $2,510,874


                           FY 2001 Estimated FTA front-end float interest:

                          Pool Receipts   Money Mkt          Days Held By               Estimated Float
        Month             Per Month       Rate               FTA (5.75/365)             Interest Earned
        Oct                  $236,686,529        6.31%               0.015753425                  $235,276
        Nov                  $248,107,586        6.34%               0.015753425                  $247,802
        Dec                  $248,400,565        6.31%               0.015753425                  $246,920
        Jan                  $274,156,145        5.80%               0.015753425                  $250,496
        Feb                  $249,475,559        5.15%               0.015753425                  $202,400
        Mar                  $289,723,850        4.94%               0.015753425                  $225,469
        Apr                  $314,309,408        4.59%               0.015753425                  $227,272
        May                  $293,886,365        3.83%               0.015753425                  $177,318
        Jun                  $352,977,327        3.64%               0.015753425                  $202,406
        Jul                  $291,400,387        3.52%               0.015753425                  $161,588
        Aug                  $289,666,175        3.41%               0.015753425                  $155,606
        Sep                  $211,587,662        2.86%               0.015753425                   $95,330
        Totals            $ 3,300,377,558                                                       $2,427,883




1
 Our calculations were based upon an estimated average of 5.75 days the FTA holds the float interest
compensation per month.
                                                                                     APPENDIX C

    ESTIMATE OF BACK-END FLOAT INTEREST EARNED BY FTA ON MRF
                           FY 2000 Estimated FTA back-end float interest:

                          Pool Receipts   Money Mkt           Days Held By              Estimated Float
        Month             Per Month       Rate                FTA 2(3/365)              Interest Earned
        Oct                 $274,833,787         4.91%                0.008219178                 $110,912
        Nov                 $240,829,243         5.08%                0.008219178                 $100,554
        Dec                 $221,296,611         5.05%                0.008219178                 $ 91,853
        Jan                 $221,564,210         4.96%                0.008219178                 $ 90,325
        Feb                 $251,807,655         5.26%                0.008219178                 $108,864
        Mar                 $217,913,475         5.47%                0.008219178                 $ 97,972
        Apr                 $227,043,439         5.74%                0.008219178                 $107,115
        May                 $248,388,543         5.84%                0.008219178                 $119,227
        Jun                 $228,784,542         6.10%                0.008219178                 $114,706
        Jul                 $245,292,949         6.26%                0.008219178                 $126,208
        Aug                 $242,743,710         6.27%                0.008219178                 $125,096
        Sep                 $246,616,326         6.30%                0.008219178                 $127,700
        Totals            $ 2,867,114,490                                                       $1,320,532


                           FY 2001 Estimated FTA back-end float interest:

                          Pool Receipts   Money Mkt           Days Held By              Estimated Float
        Month             Per Month       Rate                FTA (3/365)               Interest Earned
        Oct                  $255,850,102        6.31%                0.008219178                 $132,692
        Nov                  $237,115,519        6.34%                0.008219178                 $123,560
        Dec                  $247,423,507        6.31%                0.008219178                 $128,321
        Jan                  $249,204,345        5.80%                0.008219178                 $118,799
        Feb                  $253,326,599        5.15%                0.008219178                 $107,230
        Mar                  $278,427,691        4.94%                0.008219178                 $113,049
        Apr                  $246,685,540        4.59%                0.008219178                 $ 93,065
        May                  $293,264,811        3.83%                0.008219178                 $ 92,318
        Jun                  $303,365,533        3.64%                0.008219178                 $ 90,760
        Jul                  $285,761,701        3.52%                0.008219178                 $ 82,675
        Aug                  $299,478,696        3.41%                0.008219178                 $ 83,936
        Sep                  $287,033,280        2.86%                0.008219178                 $ 67,472
        Totals            $ 3,236,937,323                                                       $1,233,878

2
  Our calculations were based upon an average of 3 days the FTA holds the float interest compensation per
month. A statistical sample of back-end float in our 1993 audit yielded a 5.5 day average for back-end
float, however since ACH payments have become more prevalent, we selected a three day average to be
conservative.
                                                                                                         APPENDIX E


                                       AUDIT REPORT DISTRIBUTION



      Recipient                                                                                               Number of Copies



Administrator ................................................................................................................. 1

Deputy Administrator.................................................................................................... 1

Assistant Deputy Administrator for Management and Administration...................... 1

General Counsel............................................................................................................. 3

General Accounting Office ........................................................................................... 1

Office of Chief Financial Officer ................................................................................. 1
 Attention: Jeff Brow
